TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                     RECOVERY ACT


                     The Internal Revenue Service Should
                      Strengthen Processes for Managing
                    Recovery Act Funds Used for the Health
                             Coverage Tax Credit



                                      September 13, 2010

                              Reference Number: 2010-21-110




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                        HIGHLIGHTS


THE INTERNAL REVENUE SERVICE                        The IRS also took actions to implement
SHOULD STRENGTHEN PROCESSES                         recommendations related to project
FOR MANAGING RECOVERY ACT                           development activities made in a prior audit.
FUNDS USED FOR THE HEALTH                           However, improvements are needed to
COVERAGE TAX CREDIT                                 strengthen accountability and transparency over
                                                    the $80 million in Recovery Act funds that the
                                                    IRS received for improvements to the Health
Highlights                                          Coverage Tax Credit Program. Specifically,
                                                    subcontractor invoices listed third-party vendor
Final Report issued on September 13,                purchases without having receipts or other
2010                                                comparable documentation to support the
                                                    charges, and a work request has not been
Highlights of Reference Number: 2010-21-110         completed and issued to the Health Coverage
to the Internal Revenue Service Commissioner        Tax Credit contractor for enhancements to the
for Wage and Investment Division.                   Health Coverage Tax Credit Program.

IMPACT ON TAXPAYERS                                 WHAT TIGTA RECOMMENDED
Taxpayers need assurance the Internal               TIGTA recommended that the Commissioner,
Revenue Service (IRS) properly administers the      Wage and Investment Division, require the
Health Coverage Tax Credit Program to ensure        Health Coverage Tax Credit Program Office to
the enhancements required by the American           1) ensure the Contracting Officer’s Technical
Recovery and Reinvestment Act (Recovery Act)        Representative completes the Voucher Review
are provided. In addition, taxpayers need to        Checklist for all future contractor invoices prior
know that Recovery Act funds are properly           to authorizing payments, 2) develop internal
accounted for and their use is transparent.         procedures that provide for complete financial
                                                    accountability and traceability when
WHY TIGTA DID THE AUDIT                             subcontractor invoices are paid with Recovery
                                                    Act funds, and 3) complete and provide a work
The Recovery Act legislation mandates
                                                    order to the Health Coverage Tax Credit
provisions designed to improve and expand the
                                                    contractor for subsequent enhancements to the
Health Coverage Tax Credit Program. This
                                                    Health Coverage Tax Credit Program.
Program is responsible for providing income tax
credits to subsidize health insurance coverage      The IRS agreed with Recommendations 1 and
for taxpayers who, under specific circumstances,    3, stating it plans to implement the
are displaced from their jobs and lose health       recommended corrective actions. The IRS
insurance coverage benefits. Our review             agreed with the intent of the outcome measure
assessed the extent to which the Health             but disagreed with the recommendation that the
Coverage Tax Credit Program Office complied         Health Coverage Tax Credit Program Office
with provisions of the Recovery Act and             develop internal procedures for the use of
provided complete accountability and traceability   Recovery Act funds. The IRS stated the Health
of Recovery Act funding.                            Coverage Tax Credit Program Office follows all
                                                    Federal guidance and that Recovery Act fund
WHAT TIGTA FOUND                                    policies should not be internal to the Health
The IRS successfully delivered upgrades to the      Coverage Tax Credit Program.
Health Coverage Tax Credit Program as               Our recommendation was that Health Coverage
required by the Recovery Act. These upgrades        Tax Credit Program-specific guidance needed to
included raising the credit to 80 percent of the    be established to supplement existing guidance
covered health insurance premiums, allowing         related to review and payment of contractor
family members to continue receiving benefits       invoices. TIGTA believes this additional
after certain life events, and expanding taxpayer   guidance would help ensure consistency in
eligibility in the Program.                         processing invoices.
                                                  DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                September 13, 2010


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – The Internal Revenue Service Should Strengthen
                                 Processes for Managing Recovery Act Funds Used for the Health
                                 Coverage Tax Credit (Audit # 201020101)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) Release 10
 upgrade to the Health Coverage Tax Credit (HCTC) Program. The overall objective of this
 review was to determine whether the IRS properly managed and implemented requirements for
 Release 10 of the HCTC Program. The American Recovery and Reinvestment Act of 2009
 (Recovery Act)1 included provisions and provided funding for upgrading the HCTC Program.
 This audit was conducted as part of the Treasury Inspector General for Tax Administration’s
 Fiscal Year 2010 Annual Audit Plan and addresses the major management challenge of
 Modernization of the IRS.
 The Recovery Act provides separate funding to the Treasury Inspector General for Tax
 Administration through September 30, 2013, to be used in oversight activities of IRS programs.
 This audit was conducted using Recovery Act funds.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
 Services), at (202) 622-5894.




 1
     Pub. L. No. 111-5, 123 Stat. 115 (2009).
                        The Internal Revenue Service Should Strengthen
                      Processes for Managing Recovery Act Funds Used for
                                the Health Coverage Tax Credit




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Recovery Act Upgrades to the Health Coverage Tax Credit
          Program Were Delivered .............................................................................. Page 3
          Improvements Are Needed to Strengthen Management of
          Recovery Act Funds ...................................................................................... Page 5
                    Recommendation 1:........................................................ Page 8

                    Recommendation 2:........................................................ Page 9

                    Recommendation 3: ....................................................... Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 14
          Appendix III – Report Distribution List ....................................................... Page 15
          Appendix IV – Outcome Measure ................................................................ Page 16
          Appendix V – Glossary of Terms ................................................................. Page 17
          Appendix VI – Management’s Response to the Draft Report ...................... Page 18
         The Internal Revenue Service Should Strengthen
       Processes for Managing Recovery Act Funds Used for
                 the Health Coverage Tax Credit




                      Abbreviations

COTR            Contracting Officer’s Technical Representative
HCTC            Health Coverage Tax Credit
IRS             Internal Revenue Service
                       The Internal Revenue Service Should Strengthen
                     Processes for Managing Recovery Act Funds Used for
                               the Health Coverage Tax Credit




                                               Background

On February 17, 2009, the American Recovery and Reinvestment Act of 2009 (Recovery Act)1
was signed into law to support the Nation’s economic recovery. The Recovery Act’s three main
goals are to create and save jobs, spur economic activity
in long-term economic growth, and foster unprecedented
levels of accountability and transparency in Government      Federal agencies need to be
spending of more than an estimated $787 billion dollars.   aware of strict requirements for
                                                           accountability and transparency
The President has required strict oversight of Recovery        of Recovery Act funds
Act funding on the behalf of Federal agencies to allow
American taxpayers to see where Recovery Act funds
are being utilized.
One of the programs within the Internal Revenue Service (IRS) to receive Recovery Act funds is
the Health Coverage Tax Credit (HCTC) Program. The HCTC is a unique tax credit created by
the Trade Adjustment Assistance Reform Act of 2002.2 It targets a select group of taxpayers
who might otherwise be uninsured due to certain conditions of job displacement. The HCTC
helps eligible taxpayers to continue health insurance coverage by providing tax credits of up to
80 percent of the health insurance premiums for a specific period of time. The Recovery Act
included provisions to enhance the HCTC Program, such as increasing the Government’s portion
of health premiums paid from 65 to 80 percent, reimbursing the taxpayers’ portion of premiums
paid during the enrollment period, allowing family members to continue receiving benefits after
certain life events, and expanding taxpayer eligibility in the Program. Effective implementation
of these provisions is critical to providing taxpayers the benefits mandated by the Recovery Act.
The IRS administers the HCTC in partnership with other Federal agencies. The IRS’ Wage and
Investment Division oversees the design, development, implementation, and operations of the
HCTC Program. A total of $80 million (38 percent of the total Recovery Act funds estimated for
the IRS) was apportioned to enhance the HCTC Program. The use of Recovery Act funds
requires transparency to show utilization of funds and increase accountability to guard against
fraud, waste, and abuse. Federal agencies are required to ensure Recovery Act funds are used for
authorized purposes. As such, the Treasury Inspector General for Tax Administration is required
to monitor IRS implementation of Recovery Act provisions, and this audit was conducted to
meet those requirements.
This review was performed at the IRS HCTC Program Office in Washington, D.C., during the
period April through June 2010. We conducted this performance audit in accordance with

1
    Pub. L. No. 111-5, 123 Stat. 115 (2009).
2
    Pub. L. No. 210-116; Stat. 933.
                                                                                           Page 1
                  The Internal Revenue Service Should Strengthen
                Processes for Managing Recovery Act Funds Used for
                          the Health Coverage Tax Credit



generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                            Page 2
                    The Internal Revenue Service Should Strengthen
                  Processes for Managing Recovery Act Funds Used for
                            the Health Coverage Tax Credit




                                    Results of Review

The HCTC Program Office ensured that: 1) taxpayers received all health insurance subsidized
payments as required by the Recovery Act, 2) HCTC provisions required to date were delivered
and implemented in a timely manner, and 3) remaining actions and provisions that need
implementing were identified. However, improvements are needed to strengthen management
controls over Recovery Act funds to ensure provisions of the Recovery Act were met when
reporting expenditures.

Recovery Act Upgrades to the Health Coverage Tax Credit Program
Were Delivered
The HCTC Program Office successfully and timely implemented Recovery Act requirements3 to
the HCTC Program in different phases. HCTC Release 9, completed in August 2009, focused on
delivering legislative changes—which included increasing the Government’s portion of paying
health insurance premiums from 65 to 80 percent, paying retroactive health care premium
reimbursements, and expanding the number of eligible taxpayers. The focus of this audit was
HCTC Release 10, deployed in December 2009. It added more functionalities, including
allowing family members to extend benefits after certain events, and replaced or upgraded many
computer system components. The HCTC Program Office also took management actions to
address a previous Treasury Inspector General for Tax Administration audit report of HCTC
Release 9.4
The HCTC Program Office exercised adequate management controls to better administer this tax
credit. Specifically,
    •   The HCTC Program Office: Conducted weekly program status meetings with the
        contractor and relevant business divisions. The purpose of the meetings was to discuss
        implementation status of system upgrades, outstanding issues, and status of deliverables.
    •   The HCTC Contractor: Provided monthly program status reports summarizing milestone
        dates and deliverables. The contractor had processes in place for ensuring provisions
        were delivered in a timely manner.
    •   The IRS Office of Procurement: Ensured significant issues were documented and timely
        addressed with the contractor. For example, during the transition of Payment Processing

3
 See Appendix V for a glossary of terms.
4
 Recovery Act Provisions for the Health Coverage Tax Credit Were Implemented, but Development Processes
Could Be Improved (Reference Number 2010-21-057, dated May 27, 2010).
                                                                                                     Page 3
                  The Internal Revenue Service Should Strengthen
                Processes for Managing Recovery Act Funds Used for
                          the Health Coverage Tax Credit



       from one call site to another, the IRS Contracting Officer’s Technical Representative
       (COTR) determined the contractor staff was not operating at optimal level, possibly
       incurring additional and unnecessary billable hours. As a result, the Contracting Officer
       and contractor discussed resolutions for ensuring efficient employee performance.

Management actions from the prior audit were implemented
The IRS reported having taken management actions to address some of the concerns reported in
the previous HCTC Release 9 audit report. Specifically, the recommendations were that the
HCTC Program Office should: 1) perform full traceability on the requirements traceability
matrix, 2) ensure all configuration changes are properly documented and tracked, and 3) perform
an in-depth analysis of test plans. During this current review, we validated that prior
management actions were appropriately implemented as follows:
   •   Requirements traceability was accomplished. Previously, the HCTC Program Office
       requirements traceability matrix, which documents the life cycle of a requirement, was
       not all-inclusive and needed further development. The matrix did not trace to specific
       work products nor trace all system requirements to a test case. For ongoing and future
       system upgrades, we recommended the HCTC Program Office complete full traceability
       on the requirements traceability matrix, to include mapping of all requirements to
       high-level requirements and tracing to final product requirements. Subsequently, we
       obtained the November 12, 2009, requirements traceability matrix and determined it was
       updated to reflect that all requirements were traced to a test case and specific work
       products.
   •   The configuration management process was modified. The Change Control Log (a
       process used by the HCTC Program Office for documenting all change requests) did not
       formerly capture complete data for documenting and tracking change requests. We
       recommended that updates to the Configuration Management Plan include procedures to
       verify configuration changes be properly documented and tracked. In order to validate
       the IRS’ response to the prior report, the revised Change Request Form was obtained that
       included the change requests identified in the prior review. The revised form sufficiently
       annotated the status of the change request and rejected or approved actions.
   •   Testing practices were strengthened. During the prior audit, it was determined test
       practices needed to be strengthened, test documents contained missing or incomplete
       information, and proper support and approval for changes to test cases were not
       accomplished. Although the IRS agreed with the recommendation, management actions
       did not entirely address the issue. The IRS responded that there were scripts included in
       the Release 9 test plan that are no longer applicable for the HCTC. These scripts
       represented historical requirements that were never implemented or were no longer
       necessary, as well as requirements with no system impact. During HCTC Release 9, test
       scripts that were not applicable were marked as “not tested” in the test script spreadsheet,
                                                                                             Page 4
                     The Internal Revenue Service Should Strengthen
                   Processes for Managing Recovery Act Funds Used for
                             the Health Coverage Tax Credit



        per existing processes. At the time of the review, HCTC Release 9 scripts were correctly
        tested in accordance with the existing process in place at the time. Prior to HCTC
        Release 10 test execution, the test plan and detailed test scripts were updated to remove
        the test scripts and other references that were no longer applicable. The HCTC
        Release 10 testing documentation was obtained during June 2010 and included complete
        test cycle control sheets and expected test results (used by testers to determine whether
        test cases are non-tested, passed, or failed).

Improvements Are Needed to Strengthen Management of Recovery
Act Funds
One of the Recovery Act’s unique requirements was a high level of scrutiny over Recovery Act
funds, whereby Federal activities are subject to unprecedented levels of transparency and
accountability. As stated during a February 24, 2009, address to Congress, the President requires
Federal agencies to maintain strict oversight of Recovery Act funding for “every dollar” spent
for accurate reporting of expenditures. This entails ensuring Recovery Act funds be used for
authorized purposes and appropriate measures are taken to prevent fraud, waste, and abuse. If
strict oversight of Recovery Act funds is not maintained, the public may lose confidence that
their tax dollars are being used to support the Nation’s economic recovery as intended by the
legislation.
Procurement professionals, primarily the Contracting Officer, serve as legal agents of the Federal
Government and are responsible for integrity of the contracting process. Federal Acquisition
Regulations5 state that Contracting Officer responsibilities include ensuring contractor
compliance, performing all actions necessary for effective contracting, and safeguarding Federal
Government interests. The Contracting Officer may delegate certain contracting technical
oversight and administrative management aspects of the process to a COTR. Within the Federal
Government, the COTR usually works in a program office and provides technical and program
expertise necessary to develop and manage contracts.
    •   Payment of Contractor Invoices. For payment of contractor invoices, the Federal
        Acquisition Regulations provide that the “contractor is responsible for accounting for
        costs appropriately and for maintaining records, including supporting documentation
        adequate to demonstrate that costs claimed have been incurred and are allocable to the
        contract.”6 Additionally, the IRS Office of Procurement, as part of its Guidelines for
        Acquisition Practices, developed Voucher Review Procedures to describe tasks and
        subtasks required for review and payment of invoices/vouchers.7 These procedures

5
  Federal Acquisition Regulations, 48 C.F.R. Ch. 1 (2009).
6
  Federal Acquisition Regulations, FAR, 2005-19, Section: 31-201-2 (d).
7
  In Federal Acquisition Regulations and IRS Procurement Office criteria, voucher and invoice are used
interchangeably.
                                                                                                         Page 5
           The Internal Revenue Service Should Strengthen
         Processes for Managing Recovery Act Funds Used for
                   the Health Coverage Tax Credit



require a Voucher Review Checklist be completed prior to payment of contractor
invoices. If there are any issues in completing the Checklist, the COTR should
coordinate resolution of the issue with the contractor and keep members of the
acquisition team informed of the actions taken and status. The COTR may seek
Contracting Officer assistance in attempting to resolve any issues. The COTR signs the
Checklist after the issue has been resolved, and it is then sent to the Contracting Officer
for review. If the Contracting Officer has any concerns, these are discussed with the
COTR at that time. If one or more of the Checklist items is marked “no” or “false,” it is
likely an indication of an issue that should be documented in the Voucher Deficiencies
and Issues Log. Payment can be made on contractor invoices while issues are pending
resolution, if annotated in the Voucher Deficiencies and Issues Log. Voucher Element 1d
of the Voucher Review Procedures requires the COTR to ensure there is adequate
supporting documentation for subcontractor invoices or quotes. If the answer is “no,”
procedures should be followed prior to payment of the contractor invoice. In the
Voucher Review Procedures Table, Task 2: Voucher Review and Issue Resolution, the
process is depicted for adequate voucher review.
          Figure 1: Excerpt From Voucher Review Procedures




Source: IRS Office of Procurement. CO refers to Contracting Officer.


                                                                                    Page 6
                 The Internal Revenue Service Should Strengthen
               Processes for Managing Recovery Act Funds Used for
                         the Health Coverage Tax Credit



   •   Work Requests. The IRS is involved in a major modernization effort. To aid in this
       challenge, contracted services are obtained through use of task orders under the
       Department of the Treasury contract program. In accordance with guidelines, once a
       contractor is selected, the IRS Office of Procurement first prepares a task order outlining
       required tasks, and then work requests are subsequently developed, approved, and issued
       outlining details of work required to be performed. The Internal Revenue Manual defines
       the work request process as the framework to document, control, monitor, and track
       requests for changes to IRS computer systems and for additional system support. The
       Information Technology Infrastructure Library provides a framework of governance and
       best practice specific to Information Technology service, development, and operations.
       This framework recommends obtaining approval of all requests prior to changes of any
       aspect of Information Technology services. Currently, the HCTC Program Office is
       working on efficiencies release solutions, which are designed to provide enhancements to
       the HCTC Program. These enhancements include automating solutions, improving or
       streamlining processes, and providing improved customer service experience levels.

The review process for payment of contractor invoices needs improvement
We reviewed the HCTC contractor invoices dated August 2009 and January 2010, which
included 60 hardware/software subcontractor invoices totaling $2.6 million. From this universe,
we selected a random sample of 14 subcontractor invoices valued at $412,107 that listed
third-party vendor charges. Documentation was incomplete to fully support charges of
subcontractor invoices. Specifically,
   •   There were no receipts or comparable documentation to support and authenticate
       third-party charges actually incurred. Because invoices from third-party vendors were
       not attached to contractors’ invoices, the IRS can not ensure that charges incurred by the
       subcontractor are accurate.
   •   A Voucher Review Checklist was not completed to ensure HCTC contractor invoices
       were appropriately scrutinized and reviewed prior to payments using Recovery Act funds.
       The COTR stated he or she accomplished the same tasks for numerous years and was
       aware of steps needed to process invoices without completing the Voucher Review
       Checklist.
   •   The HCTC Program Office followed all guidance issued by the Office of Management
       and Budget, Department of the Treasury, and the IRS’ regarding managing Recovery Act
       funds. However, HCTC Program-specific guidance was not developed to ensure
       third-party charges were validated as necessary to ensure a higher level of accountability
       and transparency for managing Recovery Act funds.
Personnel from the HCTC Program Office informed us that they believe all required
documentation was provided by the contractor and that the invoices and payments were

                                                                                            Page 7
                    The Internal Revenue Service Should Strengthen
                  Processes for Managing Recovery Act Funds Used for
                            the Health Coverage Tax Credit



processed in accordance with routine business practices. However, the documentation provided
by the contractor did not include supporting documentation for third-party purchase or charges,
so those charges could not be validated by the COTR.
Because the Recovery Act provision was a unique and unprecedented appropriation with a
higher level of accountability and transparency, there were no specific guidelines in place to
cover necessary steps to manage Recovery Act funds within the HCTC Program. Because swift
delivery of HCTC Releases 9 and 10 were required, the HCTC Program Office was unable to
develop specific procedures prior to implementation.
However, especially in the use of Recovery Act funds, the Voucher Review Checklist needs to
be completed to ensure all necessary steps are accomplished prior to paying contractor invoices.8
Also, HCTC Program-specific guidance needs to be established to supplement the Voucher
Review Procedures. The new guidance should require steps to ensure third-party vendor charges
are strongly supported with receipts or comparable documentation prior to releasing Recovery
Act funds.
Without completing the required Voucher Review Checklist to accomplish thorough invoice
reviews, HCTC Program-specific guidance detailing necessary steps to ensure sufficient
management of Recovery Act funds, and adequate documentation to validate subcontractor
invoices, there is no way to ensure “every dollar spent” of Recovery Act funds is legitimate.
This could result in a waste of taxpayer dollars and does not provide adequate fiduciary
responsibility to ensure fraud, waste, and abuse is prevented over the use of Recovery Act Funds.
A complete traceability of support documentation needs to be accomplished between contractor,
subcontractor, and third-party invoices to ensure: 1) invoice inaccuracies are identified and
corrected prior to payment; 2) erroneous payments or overpayments of Recovery Act funds are
not incurred; and 3) fraud, waste, and abuse are prevented. Further, management of Recovery
Act funds is unique, and HCTC Program-specific guidance is necessary to provide complete
accountability and transparency as required by Recovery Act Federal legislation.

Recommendations
Recommendation 1: The Commissioner, Wage and Investment Division, should require the
COTR assigned to the HCTC Program Office to complete the Voucher Review Checklist for all
future contractor invoices prior to authorizing payments, in accordance with the Voucher Review
Procedures established by the Office of Procurement.
        Management’s Response: The IRS agreed with the recommendation. The HCTC
        Program Office COTR will continue using the Voucher Review Procedures developed by
        the IRS Office of Procurement for the review and payment of invoices. As an additional

8
 Checking “no” to Checklist Element 1d would indicate subcontractor invoices were not adequately supported to
validate charges.
                                                                                                         Page 8
                 The Internal Revenue Service Should Strengthen
               Processes for Managing Recovery Act Funds Used for
                         the Health Coverage Tax Credit



       step to provide confidence in the HCTC Program’s established review process, the COTR
       will now incorporate the Voucher Review Checklist as part of that procedure each month.
       The COTR will also submit the Voucher Review Checklist to the Contracting Officer for
       review and approval.
Recommendation 2: The Commissioner, Wage and Investment Division, should require the
HCTC Program Office to develop internal procedures that provide for complete financial
accountability and traceability when subcontractor invoices are paid with Recovery Act funds.
Specifically, HCTC Program-specific guidance needs to be established to supplement the
Voucher Review Procedures to ensure third-party receipts and other comparable documents are
received prior to payment of Recovery Act funds.
       Management’s Response: The IRS disagreed with the recommendation.
       Management stated the HCTC Program follows all guidance issued by the Office of
       Management and Budget, Department of the Treasury, IRS, and IRS’ American
       Recovery and Reinvestment Act Office, and that Recovery Act fund policies should not
       be internal to the HCTC Program Office, but rather issued by a policy office at a
       corporate level. Review and verification of third-party invoices for incidental
       hardware/software purchases is not required. The HCTC Program has special
       requirements for approval of these purchases that were put in place for the purpose of
       additional transparency as stated in Recovery Act legislation. The HCTC COTR will
       continue to validate and retain third-party receipts as part of the Voucher Review Process.
       The COTR has asked the contractor to provide third-party receipts for all purchases made
       during the Recovery Act period of performance on this contract and going forward. If
       provided, the COTR will incorporate this review for the validation and retention of
       third-party receipts for all expenditures into the ongoing monthly review. For
       expenditures made prior to this new step, the COTR will complete a random review of
       invoices to validate against third-party receipts similar to the random sample review
       performed by the Treasury Inspector General for Tax Administration. If any
       discrepancies are found with the third-party invoices, they will be escalated to the
       Contracting Officer for explanation and mediation.
       Office of Audit Comment: The audit recommendation ensures the HCTC Program
       Office develops and uses the same documented procedures when approving all contractor
       invoices for payment. Specifically, steps to validate and account for every dollar being
       spent using Recovery Act funds. The IRS has agreed to take the additional actions to
       validate subcontractor invoices, so the IRS’ disagreement to document the HCTC
       Program-specific guidelines for conducting the additional invoice review procedures is
       puzzling. The HCTC Program Office stated they put four special requirements in place
       to provide transparency for approval of purchases; however, these steps do not include
       validation of subcontractor invoices to ensure actual purchases were made by a third
       party without proof of purchase/receipts. Further, guidance established by the Office of

                                                                                           Page 9
                  The Internal Revenue Service Should Strengthen
                Processes for Managing Recovery Act Funds Used for
                          the Health Coverage Tax Credit



       Management and Budget, Department of the Treasury, IRS, and IRS’ American
       Recovery and Reinvestment Act Office does not detail procedures needed for each
       business units’ specific practices. As such, we believe the HCTC Program Office should
       develop guidelines to address Voucher Review Procedures to ensure third-party receipts
       and other comparable documents are received prior to payment of Recovery Act funds.

Contractor work performed needs documented formal approval
Support to document formal approval of contractor work performed was not sufficient.
Specifically, the HCTC Program Office did not develop and issue a required work request prior
to the contractor beginning and continuing performance of work. In September 2009, a task
order for improvement initiatives was issued to the HCTC contractor to provide ongoing support
for HCTC Program activities. The HCTC contractor work requests, based on the task order,
existed for the following functions: systems operations, program management, campus
management, stakeholder engagement, customer service, and payment processing. However,
there was not a work request for efficiencies releases to describe, in detail, work required to be
performed.
Allowing the contractor to initiate, and subsequently continue, work without having an approved
work request results in a risk that the IRS’ needs and expectations are not met. Additionally,
without specific work requirements for this efficiency release effort, the contractor may not
adequately support the HCTC Program and accountability of Recovery Act funds may not be
adequate.

Recommendation
Recommendation 3: The Commissioner, Wage and Investment Division, should require the
HCTC Program Office to complete and provide a work order to the HCTC contractor for the
subsequent efficiency enhancements to the HCTC Program.
       Management’s Response: The IRS agreed with the recommendation. The HCTC
       COTR has submitted the final work request to the Contracting Officer for review and
       concurrence.




                                                                                           Page 10
                      The Internal Revenue Service Should Strengthen
                    Processes for Managing Recovery Act Funds Used for
                              the Health Coverage Tax Credit



                                                                                               Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS properly managed and implemented
requirements1 for Release 10 of the HCTC Program. Specifically, we reviewed whether the
HCTC Program Office: 1) complied with provisions of the Recovery Act2 when reporting
expenditures, 2) ensured that taxpayers received all health insurance subsidized payments as
required by the Recovery Act, 3) ensured all HCTC provisions required to date were delivered
and implemented in a timely and cost-effective manner, and 4) adequately determined what
remaining actions and provisions need implementing. To accomplish our objective, we:
I.         Determined if the IRS (Wage and Investment Division, HCTC Program Office,
           Budget/Finance) offices complied with provisions of the Recovery Act when reporting
           expenditures.
           A. Identified the measures/directives implemented to meet program administrative,
              accountability, and transparency objectives of the Recovery Act.
               1. Reviewed the Recovery Act and Office of Management and Budget web sites and
                  other documentation to identify procedures used to ensure compliance with the
                  Recovery Act.
               2. Interviewed the HCTC Program Office and Budget officials, if applicable, to
                  identify any additional written documentation and guidance used within the
                  HCTC Program to meet the administrative, accountability, and transparency
                  objectives of the Recovery Act.
           B. Determined if the allocated Recovery Act funds are documented and supported.
               1. Obtained and reviewed HCTC and procurement written policies and procedures
                  for contractor expenses for purchases, payroll, general accounting, and travel.
               2. Obtained and reviewed the contactors expenditures for the period August 2009
                  and January 2010 for hardware purchases.
               3. Obtained the contractor invoices and equipment sales quote for the August 2009
                  and January 2010 invoices. We used the sampling generator tool within
                  Microsoft Excel to select 14 purchases at random. We used a judgmental sample
                  because we did not plan to project the audit results.

1
    See Appendix V for a glossary of terms.
2
    The American Recovery and Reinvestment Act of 2009. Pub. L. No. 111-5, 123 Stat. 115 (2009).
                                                                                                    Page 11
                 The Internal Revenue Service Should Strengthen
               Processes for Managing Recovery Act Funds Used for
                         the Health Coverage Tax Credit



          4. Verified the authenticity of the data by comparing the electronic expenditures
             from our sample to contractor source documentation. We reviewed project
             documentation for supporting hardware purchases.
II.    Determined if taxpayers are receiving full health insurance subsidized payments as
       required by the Recovery Act.
       A. Discussed with HCTC Program Office how taxpayers are identified as eligible to
          receive the full Government reimbursement.
       B. Obtained IRS data showing the actual number of taxpayers claiming the credit and
          the amount of credit claimed (health care premiums). We requested an inventory of
          participants from the IRS of taxpayers who are enrolled in the Program and eligible to
          receive the 80 percent reimbursement. We obtained an extract from the contractor for
          historical payment processing information. We received the contractor’s extract of
          the payment processing application of 25,494 monthly enrollees for the period of
          March through May 2010. We used the sampling data generator tool within
          Microsoft Excel to pick 25 enrollees at random. We used a judgmental sample
          because we did not plan to project the audit results.
       C. We determined the validity of data by reviewing the payment processing information
          for reasonableness. However, we did not conduct audit steps to verify the accuracy or
          completeness of the information because we did not use the information to make
          projections.
III.   Determined whether all Recovery Act provisions required to date were delivered and
       implemented in a timely and cost-effective manner.
       A. Discussed with HCTC Program Office and Office of Procurement management
          measures in place for ensuring Recovery Act provisions were implemented in a cost
          effective manner.
          1. Determined budget, expenditures, and tracking of total costs associated with
             delivery of the Recovery Act provisions.
          2. Obtained support documentation for Audit Step III.A.1.
          3. Obtained information and support on the contractor estimated costs and
             expenditures.
          4. Obtained support on measures in place for preventing fraud, waste, and abuse.
       B. Discussed with the HCTC Program Office and the Office of Procurement
          management the measures in place for ensuring Recovery Act provisions were
          implemented in a timely manner.
       C. Reviewed HCTC Release 10 Project Management controls.
                                                                                        Page 12
                 The Internal Revenue Service Should Strengthen
               Processes for Managing Recovery Act Funds Used for
                         the Health Coverage Tax Credit



          1. Reviewed and obtained supporting documentation for required deliverables to
             Recovery Act provisions.
          2. Reviewed and obtained milestone dates for enacting the HCTC Release 10
             Recovery Act provisions.
          3. Interviewed Office of Procurement management and obtained information on the
             performance measures for ensuring contractor compliance.
IV.    Determined what remaining actions and provisions need implementing.
       A. Discussed, identified, and documented upcoming HCTC-mandated provisions to be
          implemented and determined whether Program officials have initiated planning for
          any upcoming releases.
       B. Determined if the upcoming provisions were required or optional and, if optional,
          determined how the feature(s) were identified.
       C. Obtained, reviewed, and validated documentation to support the costs and scope of all
          remaining activities using Recovery Act funds.
       D. Determined if the IRS, especially the HCTC Program Office, is aware of any
          upcoming legislation under consideration for the HCTC Program.
       E. Determined the plans the HCTC Program Office has to handle any increased demand
          for HCTC Program enrollment and volume.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined internal controls
over sound project management guidelines for managing Recovery Act funds were relevant to
our audit objective. We evaluated these controls through discussions with appropriate personnel
and through a review of HCTC Program requirements, invoice documentation, project
management documentation, and procurement data.




                                                                                        Page 13
                 The Internal Revenue Service Should Strengthen
               Processes for Managing Recovery Act Funds Used for
                         the Health Coverage Tax Credit



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Scott A. Macfarlane, Director
Kimberly R. Parmley, Audit Manager
Charlene L. Elliston, Lead Auditor
Louis V. Zullo, Senior Auditor
David F. Allen, Program Analyst
Frank J. O’Connor, Program Analyst




                                                                                      Page 14
                 The Internal Revenue Service Should Strengthen
               Processes for Managing Recovery Act Funds Used for
                         the Health Coverage Tax Credit



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Electronic Tax Administration and Refundable Credits, Wage and Investment Division
SE:W:ETARC
Program Manager, Health Coverage Tax Credit, Wage and Investment Division SE:W:HCTC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Wage and Investment Division SE:W
       Chief, GAO/TIGTA/Legislative Implementation Branch SE:S:CLD:PSP:GTL




                                                                                     Page 15
                  The Internal Revenue Service Should Strengthen
                Processes for Managing Recovery Act Funds Used for
                          the Health Coverage Tax Credit



                                                                                 Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Questioned Costs (Unsupported Costs) – Actual; $412,107 (see page 5).

Methodology Used to Measure the Reported Benefit:
A review of HCTC contractor invoices dated August 2009 and January 2010 included
60 hardware/software subcontractor invoices totaling $2.6 million. From this universe, a random
sample of 14 subcontractor invoices valued at $412,107 listed third-party vendor charges.
Documentation was incomplete to fully support charges on the subcontractor invoices.
Specifically, there were no receipts or comparable documentation to support and authenticate
that third-party charges were actually incurred. Because invoices from third-party vendors were
not attached to contractors’ invoices, the IRS can not ensure that charges incurred by the
subcontractor are accurate.




                                                                                          Page 16
                 The Internal Revenue Service Should Strengthen
               Processes for Managing Recovery Act Funds Used for
                         the Health Coverage Tax Credit



                                                                             Appendix V

                             Glossary of Terms

Contracting Officer               An agent of the Federal Government, empowered to
                                  execute contracts and obligate Government funds.

Contracting Officer’s Technical   Furnishes technical direction, monitors contract
Representative (COTR)             performance, and maintains appropriate segregation from
                                  the contractor.

Enterprise Life Cycle             A structured business systems development method that
                                  requires the preparation of specific work products during
                                  different phases of the development process.

Federal Acquisition Regulations   Federal legislation providing the codification and
                                  publication of uniform policies and procedures for
                                  acquisition by all Executive Branch agencies.

Requirement                       A formalization of a need. It is the statement of a
                                  capability or condition that a system, subsystem, or
                                  system component must have or meet to satisfy a contract,
                                  standard, or specification.

Task Order                        A written and approved order for services placed against
                                  an established contract or with Federal Government
                                  sources.

Voucher Review Procedure          Procedures developed and issued by the IRS Office of
                                  Procurement that outline the process used by the
                                  Contracting Officer and COTR for validating contractor
                                  invoices.

Work Request                      Contains the specific details of the work to be performed
                                  in a task order, including the skill categories, estimated
                                  number of hours, required work products, and acceptance
                                  criteria.



                                                                                       Page 17
      The Internal Revenue Service Should Strengthen
    Processes for Managing Recovery Act Funds Used for
              the Health Coverage Tax Credit



                                                   Appendix VI

Management’s Response to the Draft Report




                                                         Page 18
  The Internal Revenue Service Should Strengthen
Processes for Managing Recovery Act Funds Used for
          the Health Coverage Tax Credit




                                                     Page 19
  The Internal Revenue Service Should Strengthen
Processes for Managing Recovery Act Funds Used for
          the Health Coverage Tax Credit




                                                     Page 20
  The Internal Revenue Service Should Strengthen
Processes for Managing Recovery Act Funds Used for
          the Health Coverage Tax Credit




                                                     Page 21
  The Internal Revenue Service Should Strengthen
Processes for Managing Recovery Act Funds Used for
          the Health Coverage Tax Credit




                                                     Page 22
